(~~'E              DEPARTMENT OF HEALTH & HUMAN SERVICES                                         Office of Inspector General

<"'~
-'"
 '.l(j~dil{J

                                                                                                 Region IX
                                                                                                 Office of Audit Services
                                                                                                 90 - yth Street, Suite 3-650
                                                                                                 San Francisco, CA 94103
                  APR 202009

               Report Number: A-09-09-00051

               Ms. Carla Bomben
               Deputy Director, Standards and Compliance
               San Joaquin General Hospital
               500 West Hospital Road
               French Camp, California 95231

               Dear Ms. Bomben:

               Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
               General (OIG), final report entitled "Review of Oxaliplatin Billing at San Joaquin General
               Hospital for Calendar Years 2004 and 2005." We will forward a copy of this report to the HHS
               action official noted on the following page for review and any action deemed necessary.

               The HHS action official will make final determination as to actions taken on all matters reported.
               We request that you respond to this official within 30 days from the date of this letter. Your
               response should present any comments or additional information that you believe may have a
               bearing on the final determination.

               Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
               available to the public to the extent that information in the report is not subject to exemptions in
               the Act. Accordingly, this report will be posted on the Internet at ~~~~~~!..

               If you have any questions or comments about this report, please call Tom Lin, Senior Auditor, at
               (415) 437-8374 or Alice Norwood, Audit Manager, at (415) 437-8360. Please refer to
               report number A-09-09-00051 in all correspondence.

                                                              Sincerely,

                                                       ~CL-Y.~
                                                             Lori A. Ahlstrand
                                                             Regional Inspector General
                                                              for Audit Services


               Enclosure
Page 2 - Ms. Carla Bomben


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





           EVIE OF
    OXALIPLATIN BILLING AT
                 JOAQUI
       GENERAL HOSPITAL

      FOR CALE AR YEARS

          2004 AND 2005





                    Daniel R. Levinson

                     Inspector General


                       April 2009

                      A-09-09-00051

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission of the Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. Medicare uses an outpatient prospective payment system to pay for hospital outpatient
serVIces.

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1, 2003, through
December 31, 2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

San Joaquin General Hospital (San Joaquin) is an acute-care hospital located in French Camp,
California. We reviewed payments to San Joaquin for oxaliplatin provided to Medicare
beneficiaries during calendar years (CY) 2004 and 2005.

OBJECTIVE

Our objective was to determine whether San Joaquin billed Medicare for oxaliplatin in
accordance with Medicare requirements.

SUMMARY OF FINDING

During CYs 2004 and 2005, San Joaquin did not bill Medicare in accordance with Medicare
requirements for the two oxaliplatin outpatient claims that we reviewed. San Joaquin billed
Medicare for an incorrect number of service units for those claims and received overpayments
totaling approximately $42,292. The overpayments occurred because the hospital did not
have controls in place to ensure the proper billing of oxaliplatin.

RECOMMENDATIONS

We recommend that San Joaquin:

   e	   work with the Medicare administrative contractor to adjust the two claims and refund
        approximately $42,292 in identified overpayments and

   e	   ensure that service units of drugs billed correspond to units of drugs administered.

SAN JOAQUIN COMMENTS

In its comments on our draft report, San Joaquin stated that it acknowledges our finding and the
cause of the overpayments. San Joaquin also stated that it is working with the Medicare
administrative contractor to adjust the two claims and refund the overpayments. In addition, San
Joaquin stated that it had implemented controls to ensure the proper billing of chemotherapy
drugs, including oxaliplatin. San Joaquin's comments are included in their entirety as the
Appendix.




                                                11

                            TABLE OF CONTENTS



INTRODUCTION                                     1


     BACKGROUND                                  1

         Outpatient Prospective Payment System   1

         Oxaliplatin                             1

         San Joaquin General Hospital            1


     OBJECTIVE, SCOPE, AND METHODOLOGY           .1

          Objective                               1

          Scope                                   1

          Methodology                             2


FINDING AND RECOMMENDATIONS                      2


     MEDICARE REQUIREMENTS                       .2


     INCORRECT NUMBER OF SERVICE UNITS BILLED    3


    RECOMMENDATIONS                              3


     SAN JOAQUIN COMMENTS                        3


APPENDIX


     SAN JOAQUIN COMMENTS





                                       III
                                       INTRODUCTION


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Outpatient Prospective Payment System

Pursuant to the Balanced Budget Act of 1997, P.L. No. 105-33, CMS implemented an outpatient
prospective payment system (OPPS) for hospital outpatient services. The OPPS applies to
services furnished on or after August 1, 2000.

Under the OPPS, Medicare pays for services on a rate-per-service basis using the ambulatory
payment classification group to which each service is assigned. The OPPS uses the Healthcare
Common Procedure Coding System (HCPCS) to identify and group services into an ambulatory
payment classification group.

Oxaliplatin

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1,2003, through
December 31, 2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

San Joaquin General Hospital

San Joaquin General Hospital (San Joaquin) is an acute-care hospital located in French Camp,
California. San Joaquin's Medicare claims are processed and paid by Palmetto GBA, the
Medicare administrative contractor for California.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether San Joaquin billed Medicare for oxaliplatin in
accordance with Medicare requirements.

Scope

We identified and reviewed two claims for which San Joaquin billed HCPCS code C9205 for
more than 100 service units of oxaliplatin and received Medicare payments totaling $50,803 for
oxaliplatin furnished to hospital outpatients during calendar years (CY) 2004 and 2005.

We limited our review of San Joaquin's internal controls to those applicable to billing for
oxaliplatin services because our objective did not require an understanding of all internal



                                                 1

controls over the submission of claims. Our review allowed us to establish reasonable assurance
of the authenticity and accuracy of the data obtained from CMS's National Claims History file
for CYs 2004 and 2005, but we did not assess the completeness of the file.

We performed our audit work from December 2008 through March 2009.

Meth.odology

To accomplish our objective, we:

   •	 reviewed applicable Medicare laws, regulations, and guidance;

   ~	   used CMS's National Claims History file for CYs 2004 and 2005 to identify Medicare
        claims for which San Joaquin billed at least 100 service units of oxaliplatin under HCPCS
        code cn05 and received Medicare payments for those units;

   •	 contacted San Joaquin to determine whether the identified oxaliplatin services were billed
      correctly and, if not, why the services were billed incorrectly;

   $	   obtained and reviewed records from San Joaquin that supported the identified claims; and

   •	 repriced incorrectly billed service units using ambulatory payment classification groups
      payment information for the billed HCPCS codes.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

During CYs 2004 and 2005, San Joaquin did not bill Medicare in accordance with Medicare
requirements for the two oxaliplatin outpatient claims that we reviewed. San Joaquin billed
Medicare for an incorrect number of service units for those claims and received overpayments
totaling approximately $42,292. The overpayments occurred because the hospital did not have
controls in place to ensure the proper billing of oxaliplatin.

MEDICARE REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes. CMS's "Medicare Claims
Processing Manual," Pub. No.1 00-04, chapter 4, section 20.4, states: "The definition of service
units ... is the number of times the service or procedure being reported was performed." In
addition, chapter 1, section 80.3.2.2, of this manual states: "In order to be processed correctly
and promptly, a bill must be completed accurately."


                                                2
Through CMS Transmittal A-03-05l, Change Request 2771, dated June 13,2003, CMS
instructed hospital outpatient departments to bill for oxaliplatin using HCPCS code C9205
effective July 1,2003. The description for HCPCS code C9205 is "injection, oxaliplatin, per
5 [milligrams]." Therefore, for each 5 milligrams of oxaliplatin administered to a patient,
outpatient hospitals should have billed Medicare for one service unit during our audit period.

Effective January 1, 2006, CMS instructed hospitals to bill Medicare for oxaliplatin using
HCPCS code J9263. The service unit for that code is 0.5 milligrams.

INCORRECT NUMBER OF SERVICE UNITS BILLED

During CYs 2004 and 2005, San Joaquin billed Medicare for an incorrect number of service
units for the two oxaliplatin outpatient claims that we reviewed. For one claim, San Joaquin
billed 500 service units for 250 milligrams of oxaliplatin administered instead of the appropriate
50 service units. For the other claim, San Joaquin billed 117 service units for 350 milligrams of
oxaliplatin administered instead of the appropriate 70 service units. Medicare required billing
one service unit for each 5 milligrams of oxaliplatin administered. San Joaquin received
overpayments totaling approximately $42,292 for these two claims.

The overpayments occurred because the hospital did not have controls in place to ensure the
proper billing of oxaliplatin.

RECOMMENDATIONS

We recommend that San Joaquin:

   C&   work with the Medicare administrative contractor to adjust the two claims and refund
        approximately $42,292 in identified overpayments and

   •    ensure that service units of drugs billed correspond to units of drugs administered.

SAN JOAQUIN COMMENTS

In its comments on our draft report, San Joaquin stated that it acknowledges our finding and the
cause of the overpayments. San Joaquin also stated that it is working with the Medicare
administrative contractor to adjust the two claims and refund the overpayments. In addition, San
Joaquin stated that it had implemented controls to ensure the proper billing of chemotherapy
drugs, including oxaliplatin. San Joaquin's comments are included in their entirety as the
Appendix.
APPENDIX

                                                                                                           APPENDIX





 San Joaquin General Ntlspztai / A Division ofSan Joaquin Count)/ Health Care Services
April 8, 2009


Department of Health and Human Services
Office of Inspector General, Office of Audit Services
Region IX
90 - yth Street, Suite 3-650
San Francisco, CA 94103
Attn: Lori A. Ahlstrand, Regional Inspector General for Audit Services


Dear Ms. Ahlstrand,

Thank you for giving San Joaquin General Hospital the opportunity to comment on the draft report entitled
"Review of Oxaliplatin Billing at San Joaquin General Hospital for Calendar Years 2004 and 2005."

San Joaquin General Hospital acknowledges the findings of the Office of Inspector General, Office of Audit
Services (OIG). Specifically during calendar years 2004 and 2005 San Joaquin General Hospital did not bill
Medicare in accordance with Medicare requirements for the two oxaliplatin claims that were reviewed by your
office. San Joaquin General Hospital billed Medicare for an incorrect number of service units for those claims
and received overpayments totaling $42,292.

San Joaquin General Hospital acknowledges that the overpayments occurred because the hospital did not
have sufficient controls in piace to ensure the proper billing of oxaliplatin. We have determined in both of
these cases the errors were clerical in nature. San Joaquin General Hospital used a manual process to
calculate the number of units with clerical staff checking the calculations. In addition the hospital did not
have a second review process to ensure proper billing of oxaliplatin.

Since that time, San Joaquin General Hospital has put the following controls in place to ensure the proper
billing of chemotherapy drugs including oxaliplatin:

    1.	 The Keane computer system the hospital uses for billing has been updated to calculate the correct
        number of Medicare billing units.

    2.	 All chemotherapy drug orders including oxaliplatin are reviewed by a licensed pharmacist who
        ensures that the correct number of units Is calculated and that the correct HCPCS codes are used.

We are confident that this process satisfies the OIG's rec.ommendatlon that San Joaquin General Hospital
"ensure that service units of drugs billed correspond to units of drugs administered." FollOWing the OIG's
recommendation San Joaquin General Hospital Is working with our Medicare administrative contractor,
Palmetto GBA, to adjust the two claims and refund approximately $42,292 in identified overpayments.

If I may be of further service please contact me at 209-468-6010,

Sincerely,



Carla Bomben, MPA
Deputy Director, Standards and Compliance



                  Post Office Box 1020 I Swckton I Galifimzia 95201 1209468-6000
